        AUDIT REPORT
           Audit of NRC’s Oversight of
   Decommissioned Uranium Recovery Sites and
       Sites Undergoing Decommissioning


        OIG-12-A-06     December 13, 2011




All publicly available OIG reports are accessible through
                    NRC’s Web site at:
http:/www.nrc.gov/reading-rm/doc-collections/insp-gen/
                                 UNITED STATES
                         NUCLEAR REGULATORY COMMISSION
                                 WASHINGTON, D.C. 20555-0001



OFFICE OF THE
INSPECTOR GENERAL


                                                  December 13, 2011



MEMORANDUM TO:              R. William Borchardt
                            Executive Director for Operations



FROM:                       Stephen D. Dingbaum /RA/
                            Assistant Inspector General for Audits


SUBJECT:                    AUDIT OF NRC’S OVERSIGHT OF DECOMMISSIONED
                            URANIUM RECOVERY SITES AND SITES UNDERGOING
                            DECOMMISSIONING (OIG-12-A-06)

Attached is the Office of the Inspector General’s (OIG) audit report titled, Audit of NRC’s
Oversight of Decommissioned Uranium Recovery Sites and Sites Undergoing
Decommissioning.

The report presents the results of the subject audit. Agency comments provided at the
November 22, 2011, exit conference have been incorporated, as appropriate, into this
report.

Please provide information on actions taken or planned on each of the
recommendations within 30 days of the date of this memorandum. Actions taken or
planned are subject to OIG followup as stated in Management Directive 6.1.

We appreciate the cooperation extended to us by members of your staff during the
audit. If you have any questions or comments about our report, please contact me at
415-5915 or Sherri Miotla, Team Leader, Nuclear Materials & Waste Safety Team, at
415-5914.

Attachment: As stated
                           Audit of NRC’s Oversight of Decommissioned Uranium Recovery Sites and
                                                               Sites Undergoing Decommissioning



EXECUTIVE SUMMARY

   BACKGROUND

        The Nuclear Regulatory Commission (NRC) regulates uranium recovery
        operations. Through the 1980s, commercial uranium recovery mills
        operated in support of both a fledgling nuclear power industry and U.S.
        defense programs. The waste from the mills (uranium mill tailings) caused
        environmental contamination that the Federal Government continues to
        address.

        In 1978, Congress enacted the Uranium Mill Tailings Radiation Control Act
        (UMTRCA) to provide for the disposal, long-term stabilization, and control
        of uranium mill tailings in a safe and environmentally sound manner, to
        minimize or eliminate radiation health hazards to the public. UMTRCA
        defines two categories of uranium mill tailings sites (Title I and Title II) and
        assigns differing responsibilities to three Federal agencies.

        Under Title I, the Federal Government assumed responsibility for cleanup
        at abandoned, inactive uranium milling sites. Once decommissioning is
        complete, the Department of Energy’s (DOE) Office of Legacy
        Management accepts the site for long-term care and maintenance under a
        general license from NRC.

        Title II places responsibility for cleanup of sites with the licensees that
        were operating in 1978 or licensed by NRC or an Agreement State after
        1978. Licensees must conduct cleanup activities according to an NRC-
        approved reclamation plan. Once cleanup activities are complete, NRC
        terminates the license and approves site transfer to DOE.

        NRC, the Environmental Protection Agency (EPA), and DOE have distinct
        responsibilities under UMTRCA.

                NRC Responsibilities

        NRC’s responsibility is to ensure that decommissioning at both Title I and
        Title II sites meets the standards for protecting human health and the
        environment.




                                         i
                        Audit of NRC’s Oversight of Decommissioned Uranium Recovery Sites and
                                                            Sites Undergoing Decommissioning


            EPA Responsibilities

      EPA’s responsibility is to set the standards for air and water quality.
      Additionally, EPA is responsible for administering the Comprehensive
      Environmental Response, Compensation and Liability Act, as amended
      (CERCLA), which impacts two uranium recovery sites undergoing
      decommissioning. EPA and NRC entered into memorandums
      of understanding (MOUs) regarding oversight of two sites. The MOUs
      outline EPA and NRC obligations to coordinate distinct regulatory
      responsibilities.

            DOE Responsibilities

      DOE’s responsibility under UMTRCA is to remediate Title I sites and
      provide long-term custody for both Title I and Title II sites.

OBJECTIVE

      The audit objective was to determine the effectiveness of NRC’s
      regulatory oversight of decommissioned uranium recovery sites and sites
      undergoing decommissioning.

RESULTS IN BRIEF

      NRC’s oversight of Title I and Title II uranium recovery decommissioning
      is largely effective. In particular, recent NRC initiatives to improve
      knowledge management have addressed self-identified areas of
      inefficiency and have enhanced the agency’s oversight efforts. However,
      the Office of the Inspector General has identified two opportunities for
      more effective oversight of uranium recovery decommissioning by:

            Improving compliance with the terms of the site-specific MOUs with
            EPA.

            Reducing reliance on DOE’s inspection program to alert NRC to
            problems at decommissioned uranium recovery sites in DOE
            custody.




                                      ii
                       Audit of NRC’s Oversight of Decommissioned Uranium Recovery Sites and
                                                           Sites Undergoing Decommissioning


     NRC Does Not Fully Comply With NRC-EPA CERCLA Site MOUs

     NRC does not fully comply with the conditions of the MOUs with EPA for
     uranium recovery sites subject to CERCLA. NRC agreed to conditions in
     the MOUs that would promote effective and efficient regulatory oversight.
     However, NRC lacks controls to ensure compliance with the terms of the
     MOUs. Therefore, NRC approaches oversight of remediation activities in
     a way that increases the risk that these activities will not occur in an
     effective and timely manner.

     NRC Relies on DOE’s Inspection Program

     NRC relies on DOE’s inspection program at decommissioned uranium
     recovery sites in DOE custody. Although inspections are a key
     component of NRC’s oversight, NRC has chosen not to inspect the sites
     transferred to DOE. As a result, NRC may not know if all regulatory
     requirements are met regarding the protection of public health and safety
     and the environment.

RECOMMENDATIONS

     This report makes two recommendations to improve the agency’s
     oversight of decommissioned uranium recovery sites and sites undergoing
     decommissioning. A consolidated list of these recommendations appears
     in Section IV of this report.

AGENCY COMMENTS

     An exit conference was held with the agency on November 22, 2011. At
     this meeting, agency management provided supplemental information that
     has been incorporated into this report as appropriate. As a result, agency
     management stated their general agreement with the findings and
     recommendations in this report and opted not to provide formal comments
     for inclusion in this report.




                                     iii
                     Audit of NRC’s Oversight of Decommissioned Uranium Recovery Sites and
                                                         Sites Undergoing Decommissioning



ABBREVIATIONS AND ACRONYMS

       ACL      alternate concentration limit

       CERCLA   Comprehensive Environmental Response, Compensation
                and Liability Act, as amended

       CFR      Code of Federal Regulations

       DOE      Department of Energy

       EPA      Environmental Protection Agency

       FSME     Office of Federal and State Materials and Environmental
                Management Programs

       MOU      memorandum of understanding

       NRC      Nuclear Regulatory Commission

       OIG      Office of the Inspector General

       UMTRCA   Uranium Mill Tailings Radiation Control Act of 1978




                                  iv
                                 Audit of NRC’s Oversight of Decommissioned Uranium Recovery Sites and
                                                                     Sites Undergoing Decommissioning



TABLE OF CONTENTS

        EXECUTIVE SUMMARY ............................................................. i

        ABBREVIATIONS AND ACRONYMS ......................................... iv

        I.     BACKGROUND .................................................................. 1

        II.    OBJECTIVE ....................................................................... 6

        III.   FINDINGS........................................................................... 6

                 A. NRC DOES NOT FULLY COMPLY W ITH NRC-EPA
                    CERCLA SITE MOUS .................................................. 7

                 B. NRC RELIES ON DOE’S INSPECTION PROGRAM .......... 11

        IV.    CONSOLIDATED LIST OF RECOMMENDATIONS ......... 17

        V.     AGENCY COMMENTS ..................................................... 17

        APPENDIX

                 A.     CONTAMINATION FROM URANIUM
                        MILL TAILINGS ...................................................... 18

                 B.     CONVENTIONAL URANIUM RECOVERY
                        MILLING OVERVIEW ............................................ 19

                 C.     SITES DECOMMISSIONED AND UNDERGOING
                        DECOMMISSIONING ………………………………. 20

                 D.     OBJECTIVE, SCOPE, AND METHODOLOGY ...... 21




                                                  v
                   Audit of NRC’s Oversight of Decommissioned Uranium Recovery Sites and
                                                       Sites Undergoing Decommissioning


I.   BACKGROUND

         The Nuclear Regulatory Commission’s (NRC) mission is to
         regulate the Nation's civilian use of byproduct, source, and
         special nuclear materials to ensure adequate protection of
         public health and safety, to promote the common defense and
         security, and to protect the environment.

         As part of its mission, NRC regulates uranium recovery
         operations. Through the 1980s, commercial uranium recovery
         mills operated in support of both a fledgling nuclear power
         industry and U.S. defense programs. The waste from the mills
         (uranium mill tailings) caused contamination that the Federal
         Government continues to address (see Appendix A for
         additional information on contamination).




         The Rio Algom uranium mill tailings site in Grants, NM
         Source: Office of the Inspector General (OIG), NRC


         Uranium Mill Tailings

         Uranium mill tailings are primarily the waste material created
         during conventional uranium recovery processing (see Appendix
         B for a process overview) and deposited in a mill tailings
         impoundment. The mill tailings contain heavy metal
         constituents and emit radon from the decay of radium, itself a
         decay product of uranium, thus creating potential adverse health
         and environmental effects. Uranium mill tailings impoundments
         are large, ranging in size from 4 to 370 acres. Each uranium


                                       1
                          Audit of NRC’s Oversight of Decommissioned Uranium Recovery Sites and
                                                              Sites Undergoing Decommissioning


                mill tailings site has unique characteristics determined by factors
                such as the composition of the tailings and the specific
                topography, geology, and hydrology of the area. NRC and
                Agreement States1 regulate approximately 200 million metric
                tons of uranium mill tailings, while the Department of Energy
                (DOE) oversees 26 million metric tons.

                The Uranium Mill Tailings Radiation Control Act

                Studies of the environmental impacts of uranium mill tailings
                during the early 1970s revealed potentially significant health
                hazards. The lack of regulations for managing and
                decommissioning2 the resulting waste reflected the limited
                knowledge of the hazards involved. As a result, Congress
                enacted the Uranium Mill Tailings Radiation Control Act
                (UMTRCA) in 1978, giving NRC important responsibility in the
                oversight of uranium mill decommissioning and site remediation.

                UMTRCA provides for the disposal, long-term stabilization, and
                control of uranium mill tailings in a safe and environmentally
                sound manner, to minimize or eliminate radiation health hazards
                to the public. UMTRCA defines two categories of uranium mill
                tailings sites (Title I and Title II) and assigns differing
                responsibilities to three Federal agencies.

                Categories of Uranium Mill Tailings Disposal Sites

                Under Title I, the Federal Government assumed responsibility
                for cleanup at abandoned, inactive uranium milling sites. Once
                decommissioning is complete, DOE’s Office of Legacy
                Management accepts the sites for long-term care and

1
 Agreement States are States that have entered into an agreement assuming regulatory
authority from NRC. In accordance with Section 274 of the Atomic Energy Act, as amended,
NRC may relinquish its authority to regulate byproduct, source, and limited quantities of
special nuclear material to States. These States must first demonstrate that their regulatory
programs are adequate to protect public health and safety and are compatible with NRC’s
program.
2
  Decommission means to remove a facility or site safely from service and reduce residual
radioactivity to a level that permits (1) release of the property for unrestricted use and
termination of the license or (2) release of the property under restricted conditions and
termination of the license.


                                              2
                          Audit of NRC’s Oversight of Decommissioned Uranium Recovery Sites and
                                                              Sites Undergoing Decommissioning


                maintenance under a general license from NRC. As of June
                2011, decommissioning had been completed at 21 Title I sites.




                A decommissioned Title I uranium mill tailings site in Canonsburg, PA
                Source: OIG, NRC


                Title II places responsibility for cleanup of sites with the
                licensees that were operating in 1978 or licensed by NRC or an
                Agreement State after 1978. Licensees must conduct cleanup
                activities3 according to an NRC-approved reclamation plan.
                Licensees must then provide funding for long-term surveillance,
                including annual inspections and environmental monitoring, in
                order for NRC to terminate the license and approve site transfer
                to DOE. As of June 2011, decommissioning had been
                completed at six Title II sites, which are now in long-term DOE
                custody. Decommissioning is underway at 11 other NRC
                regulated Title II sites. Appendix C of this report lists sites
                decommissioned and sites undergoing decommissioning.

                Federal Agency Responsibility

                NRC, the Environmental Protection Agency (EPA), and DOE
                have distinct responsibilities under UMTRCA.




3
  These activities may include wind blown mill tailings retrieval, dewatering or the removal of
freestanding liquids, and final radon barrier construction.

                                               3
                         Audit of NRC’s Oversight of Decommissioned Uranium Recovery Sites and
                                                             Sites Undergoing Decommissioning



        NRC Responsibilities

                NRC’s responsibility under UMTRCA is to ensure that
                decommissioning at both Title I and Title II sites meets the
                standards for protecting human health and the environment.
                Specifically,

                        Title I sites: NRC is required to evaluate DOE's site
                        design and implementation and, following remediation, to
                        concur that the site meets established standards.

                        Title II sites: NRC (or an Agreement State as appropriate)
                        is required to oversee licensees’ operations and
                        decommissioning, and conduct inspections and license
                        reviews.

                NRC’s uranium recovery decommissioning inspectors are
                located in Region IV, and project managers overseeing license
                and technical reviews are located in the Office of Federal and
                State Materials and Environmental Management Programs
                (FSME) in NRC headquarters. Region IV has three qualified
                uranium recovery inspectors. FSME has budgeted
                approximately 5.5 full-time equivalents to the oversight program
                for fiscal year 2012.

                        EPA Responsibilities

                EPA’s responsibility under UMTRCA is to set the standards for
                air and water quality. For air, the primary concern is radon gas,
                and for groundwater, the concerns are uranium and associated
                heavy metal constituents. EPA’s regulations were incorporated
                into NRC’s regulations in 10 Code of Federal Regulations (CFR)
                Part 40, Appendix A. Additionally, EPA is responsible for
                administering the Comprehensive Environmental Response,
                Compensation and Liability Act, as amended (CERCLA),4 which
                impacts two uranium recovery sites undergoing
                decommissioning. EPA and NRC entered into memorandums

4
  CERCLA was enacted in 1980 to provide for remedial action at chemically and radiologically
contaminated sites. EPA initiates a multiphase evaluation and cleanup process when it
identifies a site requiring remediation under CERCLA authority.

                                             4
         Audit of NRC’s Oversight of Decommissioned Uranium Recovery Sites and
                                             Sites Undergoing Decommissioning


of understanding (MOUs) regarding oversight of two sites. The
MOUs outline EPA and NRC obligations to coordinate distinct
regulatory responsibilities.




The Church Rock uranium mill tailings site in Gallup, NM
Source: OIG, NRC



       DOE Responsibilities

DOE’s responsibility under UMTRCA is to remediate Title I sites
and provide long-term custody for both Title I and Title II sites.
Specifically,

       DOE’s Title I remediation actions must meet EPA
       standards with review and concurrence by NRC.

       DOE develops and NRC approves a long-term
       surveillance plan for Title I and Title II sites where
       reclamation is complete.

       DOE takes possession of the sites for long-term custody
       under a general license. Long-term custody includes
       monitoring, maintenance, and emergency measures
       necessary to protect public health and safety. There is
       no termination of this unique general license.




                             5
                   Audit of NRC’s Oversight of Decommissioned Uranium Recovery Sites and
                                                       Sites Undergoing Decommissioning


II.   OBJECTIVE

           The audit objective was to determine the effectiveness of NRC’s
           regulatory oversight of decommissioned uranium recovery sites
           and sites undergoing decommissioning. Appendix D contains
           information on the audit scope and methodology.



III. FINDINGS

           NRC’s oversight of Title I and Title II uranium recovery
           decommissioning is largely effective. In particular, recent NRC
           initiatives to improve knowledge management have addressed
           self-identified areas of inefficiency and have enhanced the
           agency’s oversight efforts. However, OIG has identified two
           opportunities for more effective oversight of uranium recovery
           decommissioning by:

                  Improving compliance with the terms of the site-specific
                  MOUs with EPA.

                  Reducing reliance on DOE’s inspection program to alert
                  NRC to problems at decommissioned uranium recovery
                  sites in DOE custody.




                                       6
                          Audit of NRC’s Oversight of Decommissioned Uranium Recovery Sites and
                                                              Sites Undergoing Decommissioning


A.    NRC Does Not Fully Comply With NRC-EPA CERCLA Site MOUs

                NRC does not fully comply with the conditions of the MOUs with
                EPA for uranium recovery sites subject to CERCLA. NRC
                agreed to conditions in the MOUs that would promote effective
                and efficient regulatory oversight. However, NRC lacks controls
                to ensure compliance with the terms of the MOUs. Therefore,
                NRC approaches oversight of remediation activities in a way
                that increases the risk that these activities will not occur in an
                effective and timely manner.

                NRC Compliance With MOU Conditions

                Federal internal control standards5 require agencies to establish
                and monitor internal controls and performance measures to
                assure effectiveness and efficiency of agency operations and
                the use of resources. Additionally, the standards require that
                managers compare actual performance to planned or expected
                results and analyze significant differences.

                Internal controls are integral components of an organization’s
                management that provide reasonable assurance of
                effectiveness and efficiency of operations. Internal control
                comprises the plans, methods, and procedures, to include
                performance measures, used to meet missions, goals, and
                objectives.

                NRC and EPA jointly developed and agreed to MOUs for
                promoting effective and efficient regulation of two uranium
                recovery sites in New Mexico undergoing decommissioning: (1)
                Church Rock and (2) Homestake. NRC and EPA regulate
                remediation activities at these sites through authorities given to
                both agencies in UMTRCA. EPA also possesses additional
                regulatory authorities through CERCLA. The objective of the
                MOUs is to promote effective regulation and assure that site
                remediation activities occur in an effective and timely manner.



5
  Office of Management and Budget Circular A-123, Management’s Responsibility for
Internal Control, and U.S. Government Accountability Office Standards for Internal Control in
the Federal Government.

                                              7
         Audit of NRC’s Oversight of Decommissioned Uranium Recovery Sites and
                                             Sites Undergoing Decommissioning


NRC has several obligations under the MOUs. One is to
provide site remediation progress reports on a quarterly basis
for Church Rock and on a semiannual basis for Homestake.
Another responsibility is to conduct an annual review of the
MOUs. These two responsibilities are part of several conditions
in the MOUs intended to ensure long-term effectiveness of
oversight and promote mutual communication.




The Homestake uranium mill tailings site in Grants, NM
Source: OIG, NRC


NRC Does Not Fully Comply With NRC-EPA CERCLA Site
MOUs

NRC does not fully comply with the conditions of the jointly
developed and agreed upon MOUs with EPA for uranium
recovery CERCLA sites. NRC has not provided required
progress reports to EPA or conducted required annual reviews
of the MOUs.

NRC Has Not Provided Progress Reports to EPA

NRC has not met its responsibility to provide EPA with quarterly
progress reports on site remediation for the Church Rock site



                              8
         Audit of NRC’s Oversight of Decommissioned Uranium Recovery Sites and
                                             Sites Undergoing Decommissioning


and semiannual progress reports for the Homestake site. An
NRC senior manager acknowledged that NRC is not meeting
this requirement.

NRC Has Not Conducted an Annual Review of the MOUs

NRC has not met its responsibility to conduct an annual review
of the MOUs. Conditions in the MOUs require NRC to review
the MOUs annually in order to make modifications based on
changes in regulatory authorities or priorities. NRC senior
managers stated that agency staff never reviewed the MOUs.

NRC Lacks Controls To Ensure Compliance With the MOUs

NRC does not fully comply with the MOUs for uranium recovery
CERCLA sites because NRC does not have internal controls or
performance measures in place to provide reasonable
assurance that NRC is fulfilling its obligations.




A water treatment plant at the Homestake site in Grants, NM
Source: OIG, NRC


FSME is responsible for ensuring NRC compliance with the
MOUs for uranium recovery CERCLA sites. FSME has baseline
performance measures and an internal control plan to ensure
that programs achieve intended results, resources are used



                              9
        Audit of NRC’s Oversight of Decommissioned Uranium Recovery Sites and
                                            Sites Undergoing Decommissioning


consistently with the agency’s mission, and laws and regulations
are followed. However, neither the performance measures nor
internal control plan include controls to provide reasonable
assurance that NRC fully complies with and meets its
obligations under the MOUs.

NRC Risks Hindering Effective Oversight

Because NRC is not in full compliance with the conditions of the
MOUs with EPA for uranium recovery CERCLA sites, effective
and efficient oversight may be hindered. NRC not providing
progress reports on site remediation and the lack of annual
MOU reviews have contributed to an approach to oversight of
remediation activities in a way not outlined in the MOUs. For
example, NRC and EPA senior managers recently exchanged
letters agreeing that the objective of the Homestake MOU is to
ensure site remediation activities occur in an effective and
timely manner, but staff from both agencies disagreed with the
other agency’s approach to overseeing the activities at the site.

NRC’s current approach to oversight of remediation activities in
a way not outlined in the MOUs increases the risk that these
activities will not occur in an effective and timely manner.
Furthermore, because the MOUs have not been reviewed, they
have not been updated.

Recommendation

OIG recommends that the Executive Director for Operations:

1. Establish performance measures to ensure compliance with
   the NRC-EPA CERCLA site MOUs.
   .




                           10
              Audit of NRC’s Oversight of Decommissioned Uranium Recovery Sites and
                                                  Sites Undergoing Decommissioning


B. NRC Relies on DOE’s Inspection Program

     NRC relies on DOE’s inspection program at decommissioned
     uranium recovery sites in DOE custody. Although inspections
     are a key component of NRC’s oversight, NRC has chosen not
     to inspect the sites transferred to DOE. As a result, NRC may
     not know if all regulatory requirements are met regarding the
     protection of public health and safety and the environment.




     Rock cover testing at the Umetco uranium mill tailings site in Gas Hills, WY
     Source: NRC

     Inspection Is a Key Component of NRC Oversight

     Inspections constitute a key component of NRC’s regulatory
     process. The Atomic Energy Act of 1954, as amended, firmly
     establishes inspection of licensees as a primary monitoring tool.
     The act requires the agency to ―insure that the management of
     any byproduct material . . . is carried out in such a manner as
     the Commission deems appropriate to protect the public health
     and safety and the environment‖ and authorizes the agency to
     conduct inspections. NRC regulations require licensees to
     provide for inspections as may be necessary for NRC to ensure
     that licensees meet existing regulatory requirements.




                                 11
                          Audit of NRC’s Oversight of Decommissioned Uranium Recovery Sites and
                                                              Sites Undergoing Decommissioning


                General License Terms Allow Inspection

                After a facility has been decommissioned, the site is transferred
                to DOE for long-term custody under the general license.6 The
                general license terms allow for inspection by NRC. Specifically,
                the regulation states that the ―the long-term care agency under
                the general license … shall [g]uarantee permanent right-of-entry
                to Commission representatives for the purpose of periodic site
                inspections.‖7 This allows NRC to inspect the uranium mill
                tailings sites in DOE long-term custody under the general
                license.

                NRC Relies on DOE’s Inspection Program

                A DOE contractor conducts annual inspections of all uranium
                mill tailings sites in DOE long-term custody. Depending on site
                conditions and compliance requirements, these inspections may
                include the following: visual inspection and photographic
                documentation of conditions, routine maintenance, surveys to
                detect settlement of the mill tailings impoundment, groundwater
                monitoring, and rock quality monitoring. The contractor compiles
                the observations into separate reports on the Title I and Title II
                sites, and then DOE submits the inspection reports to NRC.

                Technical Challenges Revealed by DOE Inspections

                DOE’s inspection program has revealed technical challenges at
                some sites, particularly in groundwater conditions and durability
                of covers and erosion protection structures.

                Groundwater

                Uranium mill tailings contaminated the groundwater at
                numerous sites. For such sites, the approved reclamation plan
                must include the post-remediation groundwater quality goal. The
                approach for addressing EPA standards depends on site
                conditions. In cases where the EPA standard for drinking water
6
 The general license is established and its terms are set forth in 10 CFR 40.27 and
10 CFR 40.28.
7
 The inspection reference appears in 10 CFR 40.27(c)(4) for Title I sites and 10 CFR
40.28(c)(4) for Title II sites, using identical language.

                                             12
                          Audit of NRC’s Oversight of Decommissioned Uranium Recovery Sites and
                                                              Sites Undergoing Decommissioning


                is not practicable with available remediation techniques, a
                licensee may apply for approval of alternative standards known
                as alternate concentration limits (ACLs) for one or more
                contaminants.




                Loose erosion fabric at the Shiprock uranium mill tailings site in New Mexico
                Source: DOE


                Groundwater contaminant standards should be set at a level
                where normal fluctuation of concentration levels will not exceed
                the approved limits. However, groundwater contaminant levels
                at some sites transferred to long-term custody have shown
                consistent increases (e.g., Bluewater) or broad fluctuations
                (e.g., Falls City and Tuba City). At one Title II site (Shirley
                Basin South) transferred to DOE custody, alternative standards
                have been exceeded. Another Title II site (Bear Creek) has had
                its ―final inspection‖ by NRC, but the pending transfer to DOE is
                delayed because of similar exceedences.

                Durability

                Uranium mill tailings are compacted into engineered disposal
                cells.8 To be approved, a site’s reclamation plan must include a
                site-specific design for the disposal cell that takes into account

8
 Disposal cells are engineered to encapsulate the mill tailings, reduce radon emanation, and
prevent the movement of water through the tailings.

                                              13
                          Audit of NRC’s Oversight of Decommissioned Uranium Recovery Sites and
                                                              Sites Undergoing Decommissioning


                the characteristics of the uranium mill tailings and site
                topography, among other factors. The goals are to prevent
                radon emissions and dispersion of the uranium mill tailings. The
                cell design specifies not only the dimensions of the
                impoundment, radon barrier, and rock cover, but also the
                structures for erosion control that will protect the disposal cell
                from surface runoff after construction.

                According to regulations, these engineered disposal cells should
                be effective for at least 200 years. However, several sites in
                DOE long-term custody have had problems with covers or with
                erosion control measures within less than 25 years of
                construction. In addition, a Title II site that has received its ―final
                inspection‖ in preparation for transfer to DOE has already
                experienced durability problems. Table 1 lists the sites with
                technical challenges.

Table 1: Sites with Technical Challenges
                                            Year of      Year
                              UMTRCA       Transfer      cell
        Site Name, State        Title       to DOE       built             Technical Challenge
             Falls City, TX       I          1997        1994      Groundwater—uranium fluctuations
             Lakeview, OR         I          1995        1989      Durability—rock degradation
                  Rifle, CO       I          1998        1996      Durability—slopes, drainage
         Salt Lake City, UT       I          1997        1989      Durability—rock degradation
                                                                   Durability—erosion
             Tuba City, AR        I          1996        1990      Groundwater—broad fluctuations
          Bear Creek, WY          II         n/a *       1999      Groundwater—ACL exceeded
            Bluewater, NM         II         1997        1995      Groundwater-—rise in radium levels
                L-Bar, NM         II         2004        2000      Durability—erosion
  Shirley Basin South, WY         II         2005        2001      Groundwater—ACL exceeded
    Umetco Gas Hills, WY          II         n/a *       2002      Durability—erosion
Source: OIG, compiled from NRC and DOE site documents.
* n/a: Pending transfer to DOE.


                NRC Does Not Inspect

                NRC does not conduct inspections at the uranium recovery sites
                in DOE long-term custody under the general license. When a
                site is transferred to DOE long-term custody there is no formal



                                             14
         Audit of NRC’s Oversight of Decommissioned Uranium Recovery Sites and
                                             Sites Undergoing Decommissioning


mechanism for further inspection, and NRC oversight shifts from
the regional inspection branch to project managers at
headquarters.

Project managers in FSME described their oversight activities
as reviewing the DOE-submitted inspection reports and
groundwater monitoring reports where applicable. They may
follow up with DOE’s Office of Legacy Management if they have
a question, but the primary contacts with DOE staff are in
quarterly conference calls to review technical issues. Project
managers sometimes visit the sites in DOE custody, but they
clearly stated that such visits are not formal inspections. For
example, one project manager reported recently touring a few
sites in order to become more familiar with site-specific issues.




The Maybell West uranium mill tailings site in Colorado
Source: DOE

NRC Chooses Not To Inspect Sites Transferred to DOE for
Long-Term Surveillance

NRC has chosen not to inspect sites transferred to DOE for
long-term surveillance. NRC managers explained that the
agency conducts extensive oversight during decommissioning
so that the sites will not require scrutiny after transfer. They


                            15
        Audit of NRC’s Oversight of Decommissioned Uranium Recovery Sites and
                                            Sites Undergoing Decommissioning


contended that when regulatory requirements are met during
decommissioning, NRC can certify that a site is stable and
ready for closure with only minimal monitoring according to the
long-term surveillance plan. The managers also concluded that
DOE would be at least as effective in monitoring as NRC would
be, and therefore NRC could rely on DOE to alert NRC to any
problems and address them through the process of amending
the long-term surveillance plan.

NRC May Not Know If Regulatory Requirements Are Being
Met

Because NRC does not inspect sites transferred to DOE for
long-term custody, NRC may not know if all regulatory
requirements are being met regarding the protection of public
health and safety and the environment. Some decommissioned
uranium recovery sites have proven more dynamic than
originally expected, and NRC may not have the best information
regarding conditions at these sites. Transfer of all remaining
Title II sites to DOE will result in approximately 226 million
metric tons of radioactive and hazardous waste in DOE long-
term custody. Given the current approach, NRC will not
independently verify that these sites are meeting regulatory
standards that protect public health and safety and the
environment.

Recommendation

OIG recommends that the Executive Director for Operations:

2. Develop and document in inspection guidance a frequency
   for inspecting uranium recovery sites transferred to DOE for
   long-term surveillance.




                           16
                  Audit of NRC’s Oversight of Decommissioned Uranium Recovery Sites and
                                                      Sites Undergoing Decommissioning


IV.   CONSOLIDATED LIST OF RECOMMENDATIONS

          OIG recommends that the Executive Director for Operations:

          1. Establish performance measures to ensure compliance with
             the NRC-EPA CERCLA site MOUs.

          2. Develop and document in inspection guidance a frequency
             for inspecting uranium recovery sites transferred to DOE for
             long-term surveillance.



V.    AGENCY COMMENTS

          An exit conference was held with the agency on November 22,
          2011. At this meeting, agency management provided
          supplemental information that has been incorporated into this
          report as appropriate. As a result, agency management stated
          their general agreement with the findings and recommendations
          in this report and opted not to provide formal comments for
          inclusion in this report.




                                     17
                     Audit of NRC’s Oversight of Decommissioned Uranium Recovery Sites and
                                                         Sites Undergoing Decommissioning

                                                                             Appendix A


Contamination From Uranium Mill Tailings

          Contamination occurs through five primary pathways: radon
          inhalation, dust migration, surface water runoff, ground seepage
          into aquifers, and radioactivity absorbed in vegetation and
          entering the food chain. The contamination pathways are
          illustrated below.




          Source: The Long Term Stabilization of Uranium Mill Tailings, © IAEA, 2004,
          page 298




                                        18
                   Audit of NRC’s Oversight of Decommissioned Uranium Recovery Sites and
                                                       Sites Undergoing Decommissioning

                                                                           Appendix B


Conventional Uranium Recovery Milling Overview

          Uranium recovery is the process of concentrating uranium from
          ore into a product called "yellowcake," which is later converted
          into fuel for nuclear reactors.

          Conventional uranium mills crush the uranium ore, use an acid
          or alkaline solution to leach the uranium from the ore, and then
          concentrate the uranium from the solution into yellowcake. The
          uranium milling process is illustrated below.




          Source: U.S. Energy Information Administration




                                      19
                           Audit of NRC’s Oversight of Decommissioned Uranium Recovery Sites and
                                                               Sites Undergoing Decommissioning

                                                                                   Appendix C


Sites Decommissioned and Undergoing Decommissioning


Decommissioned Uranium Recovery Sites in DOE Long-Term Custody
                Title I                                        Title II
                                     Fiscal Year                                    Fiscal Year
           Site Name, State                               Site Name, State
                                     Transferred                                    Transferred
 1   Ambrosia Lake, NM                  1998       Bluewater, NM                       1997
 2   Burrell, PA                        1994       Edgemont, SD                        1996
 3   Canonsburg, PA                     1996       L-Bar, NM                           2004
 4   Durango, CO                        1996       Maybell West, CO                    2010
 5   Falls City, TX                     1997       Sherwood, WA                        2001
 6   Grand Junction, CO                 1999       Shirley Basin South, WY             2005
 7   Green River, UT                    1998
 8   Gunnison, CO                       1997
 9   Lakeview, OR                       1995
10   Lowman, ID                         1994
11   Maybell, CO                        1999
12   Mexican Hat, UT                    1997
13   Monument Valley, AZ                1997
14   Naturita, CO                       1999
15   Rifle, CO                          1998
16   Riverton, WY                       1991
17   Salt Lake City, UT                 1997
18   Ship Rock, NM                      1996
19   Slick Rock, CO                     1998
20   Spook, WY                          1993
21   Tuba City, AZ                      1996
Source: DOE Office of Legacy Management, Site Management Guide, June 2011. According to this
guide, the above listing is accurate as of September 30, 2010.


NRC Licensed Title II Sites Undergoing Decommissioning
                                         NRC-Licensed Sites

                                           Site Name, State
 1 American Nuclear, WY
 2 Bear Creek, WY
 3 ExxonMobil Highlands, WY
 4 Homestake, NM
 5 Pathfinder–Lucky MC, WY
 6 Pathfinder–Shirley Basin, WY
 7 Rio Algom–Ambrosia Lake, NM
 8 Sequoyah Fuels Corporation, OK
 9 Umetco Minerals, WY
10 United Nuclear–Church Rock, NM
11 Western Nuclear–Split Rock, WY
Source: NRC’s Web site, "NRC-Regulated Uranium Recovery Sites Undergoing Decommissioning,"
May 20, 2011




                                              20
                Audit of NRC’s Oversight of Decommissioned Uranium Recovery Sites and
                                                    Sites Undergoing Decommissioning

                                                                        Appendix D


OBJECTIVE, SCOPE, AND METHODOLOGY

        Objective

        The audit objective was to determine the effectiveness of NRC’s
        regulatory oversight of decommissioned uranium recovery sites
        and sites undergoing decommissioning.

        Scope

        The audit focused on reviewing the oversight of
        decommissioned uranium recovery sites and sites undergoing
        decommissioning. We conducted this performance audit at
        NRC headquarters and at uranium recovery sites in Gallup, NM;
        Grants, NM; Canonsburg, PA; Carbon County, WY; and
        Converse County, WY, from April 2011 through September
        2011. Internal controls related to the audit objective were
        reviewed and analyzed. Throughout the audit, auditors were
        aware of the possibility or existence of fraud, waste, or misuse
        in the program.

        Methodology

        OIG reviewed relevant Federal legislation pertaining to NRC’s
        regulatory authorities to oversee uranium recovery sites,
        including the Atomic Energy Act of 1954, as amended, and the
        Uranium Mill Tailings Radiation Control Act of 1978. OIG also
        reviewed agency guidance including office instructions,
        inspection manual chapters, and inspection procedures
        pertaining to the oversight of uranium recovery sites. Reports,
        briefings, presentations, and communications between NRC
        and representatives from both DOE and EPA that address the
        relevant aspects of uranium recovery oversight were also
        reviewed.

        OIG interviewed NRC staff and managers from headquarters
        (Rockville, MD) and Region IV (Arlington, TX) who participate in
        activities related to uranium recovery oversight. OIG also
        interviewed licensees, and representatives from the DOE, EPA,

                                   21
        Audit of NRC’s Oversight of Decommissioned Uranium Recovery Sites and
                                            Sites Undergoing Decommissioning


and the Navajo Nation. These interviews were conducted to
obtain insights into NRC’s oversight of uranium recovery
decommissioning.

The audit team also observed the following inspection activities:

      An NRC safety inspection at the ExxonMobil-Highland
      uranium recovery site in Converse County, WY.

      An NRC safety inspection at the Pathfinder-Shirley Basin
      uranium recovery site in Carbon County, WY.

We conducted this performance audit in accordance with
generally accepted Government auditing standards. Those
standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis
for our findings and conclusions based on our audit objectives.
We believe that the evidence obtained provides a reasonable
basis for our findings and conclusions based on our audit
objective.

The audit work was conducted by Sherri Miotla, Team Leader;
Robert Woodward, Audit Manager; Kevin Nietmann, Senior
Technical Advisor; Levar Cole, Senior Management Analyst;
and Amy Hardin, Auditor.




                           22
